       GLOBAL COMMAND AND CONTROL SYSTEM –
   METEOROLOGICAL AND OCEANOGRAPHIC APPLICATION


Report No. D-2001-157                      July 11, 2001



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CONOPS                Concept of Operations
COP                   Common Operational Picture
DISA                  Defense Information Systems Agency
GCCS                  Global Command and Control System
JMS                   Joint Meteorological and Oceanographic Segment
METOC                 Meteorological and Oceanographic
TFS                   Tactical Forecast System
                       Office of the Inspector General, DoD
Report No. D-2001-157                                                      July 11, 2001
  Project No. (D2000LG-0102.002)


       Global Command and Control System – Meteorological and
                    Oceanographic Application

                                   Executive Summary

Introduction. This report is one in a series of audits evaluating the effectiveness and
efficiency of DoD meteorological and oceanographic support provided by the Military
Departments to DoD and other governmental agencies.

Background. The Global Command and Control System is the DoD joint command
and control system, designed and implemented to provide accurate, complete, and
timely information to warfighters. The Global Command and Control System common
operational picture correlates and fuses data from numerous sensors and intelligence
sources to provide warfighters the situational awareness needed to be able to act and
react decisively. The addition of meteorological and oceanographic data to the Global
Command and Control System provides an additional capability necessary for
commanders to supervise, plan, and manage operations on the battlefield.

Objectives. The overall objective of this self-initiated series of audits was to evaluate
DoD meteorological and oceanographic services and support to determine whether the
Military Departments were providing the most cost-effective and nonduplicative
meteorological and oceanographic services and support to DoD and other governmental
agencies. Specifically, this audit focused on evaluating the ability of the Global
Command and Control System meteorological and oceanographic application to meet
warfighting operational requirements. In addition, we reviewed the integration of the
meteorological and oceanographic application into the Global Command and Control
System common operational picture. We also evaluated the management control
program as it related to the audit objective.

Results. The DoD user community did not use the joint meteorological and
oceanographic application on the Global Command and Control System. Only 5 of
3,385 Global Command and Control System workstations had downloaded the joint
meteorological and oceanographic application. As a result, DoD can demonstrate only
limited progress in accomplishing its objective to blend meteorological and
oceanographic information into mission planning and execution using the Global
Command and Control System. In addition, DoD has expended considerable resources
on meetings, working groups, studies, analyses, and field tests in an unsuccessful effort
to implement a single joint meteorological and oceanographic application, although we
were unable to quantify the costs. See the Finding section for details on the audit
results. See Appendix A for a discussion of our review of the management control
program.

Summary of Recommendations. We recommend that the Assistant Secretary of
Defense (Command, Control, Communications, and Intelligence) designate one
executive agent for the joint meteorological and oceanographic application to ensure
that application software adequately satisfies requirements and meets standards before
integration testing, to provide the user community with notification of application uses
and capabilities, training, assistance with development of technical solutions and
analyses, and adequate documentation of system uses and capabilities. In addition, we
recommend that the Director, Joint Staff, revalidate the original Global Command and
Control System meteorological and oceanographic requirements and develop concrete,
measurable, and qualitative requirements that can be accurately tested. Also, we
recommend that the Director, Defense Information Systems Agency, perform a new
technical and economic analysis of meteorological and oceanographic applications using
revised requirements; provide a recommendation on the assignment of an executive
agent; evaluate future meteorological and oceanographic applications for overall
mission impact, compatibility with hardware in the field, and user friendliness; perform
field tests of the joint meteorological and oceanographic application at test locations
with environments comparable to normal operational locations; coordinate with the
executive agent, to provide functional meteorological and oceanographic applications
and capabilities that do not duplicate Service efforts and to provide continuing support
for joint meteorological and oceanographic applications; and track and analyze use of
the applications to determine general user satisfaction and to identify any major
application errors or unmet user requirements.

Management Comments. The Joint Staff requested that draft recommendations
addressed to the Chairman, Global Command and Control Review Board, concerning
system requirements be redirected to the Joint Staff. The Joint Staff concurred with the
recommendations and agreed to revalidate Global Command and Control System
meteorological and oceanographic requirements and to develop testable metrics in
coordination with the Defense Information Systems Agency. The Joint Staff stated that
the draft recommendation concerning the designation of an executive agent for each
Global Command and Control System application was not within its authority. The
Defense Information Systems Agency concurred with the recommendations, stating that
it would perform a technical evaluation of the meteorological and oceanographic
applications once the Joint Staff prioritized requirements. Also, the Defense
Information Systems Agency stated that it was now following established criteria and
recommending an executive agent for all new Global Command and Control System
applications. Additionally, the Defense Information Systems Agency states it was
working with the Joint Staff and the Joint Meteorological and Oceanographic Functional
Working Group to find optimal locations for test sites. A discussion of management
comments is in the Finding section and Appendix A, and the complete text is in the
Management Comments section of the report.

Audit Response. The Joint Staff comments were fully responsive. We redirected the
recommendation concerning the designation of an executive agent to the Assistant
Secretary of Defense (Command, Control, Communications, and Intelligence). The
Defense Information Systems Agency comments were generally responsive, but did not
address the provision of continuing support for the joint meteorological and
oceanographic application. As a result of comments provided by the Defense
Information Systems Agency, we deleted the draft recommendation to select only one
joint meteorological and oceanographic application. We request that the Assistant
Secretary of Defense (Command, Control, Communications, and Intelligence) and the
Director, Defense Information Systems Agency, provide comments on the final report
by September 11, 2001.

                                           ii
Table of Contents

Executive Summary                                                     i

Introduction
     Background                                                       1
     Objectives                                                       3

Finding
     Use of the Joint Meteorological and Oceanographic Application   4

Appendixes
     A. Audit Process
          Scope                                                      18
          Methodology                                                19
          Management Control Program Review                          20
          Prior Coverage                                             21
     B. Joint Meteorological and Oceanographic Application           22
     C. Report Distribution                                          23

Management Comments
     Joint Staff                                                     25
     Defense Information Systems Agency                              26
     Department of the Air Force                                     31
Background
           The Global Command and Control System (GCCS) is the DoD command and
           control system1 designed and implemented to provide accurate, complete, and
           timely information to warfighters. GCCS incorporates force planning and
           readiness assessment applications required by battlefield commanders to
           effectively plan and execute joint military operations. GCCS supports the
           National Command Authority2 down to the joint task force tactical commander
           in conducting coordinated operations from dispersed locations by providing a
           shared view of the battlefield. Commanders in chief of the unified commands
           and joint task force commanders use GCCS to maintain situational awareness
           through an integrated, near real-time picture of the battlespace. GCCS also
           supports interoperability among the Service Components and within individual
           Services. GCCS provides the capability for viewing a common, real-time
           picture of the battlespace using a common operational picture (COP). The
           COP, which represents a specified area of operational responsibility, correlates
           and fuses data from numerous sensors and intelligence sources to provide
           warfighters the situational awareness needed to be able to act and react
           decisively. The unified command should be able to overlay onto the COP the
           current disposition of hostile, neutral, and friendly forces, as well as other
           intelligence and meteorological and oceanographic (METOC)3 information
           necessary for decisionmaking.

           Joint Meteorological and Oceanographic Application. After-action reports
           from Operation Desert Storm identified shortfalls in METOC communications
           capabilities for joint operations. DoD developed a “Concept of Operations
           [CONOPS] for the Global Command and Control Systems Meteorology and
           Oceanography” (METOC CONOPS), August 18, 1997, which outlines the
           benefits and uses of a joint METOC application for GCCS. The METOC
           CONOPS states that the purpose for adding a joint METOC application to
           GCCS was to “blend METOC information into mission planning and execution
           to characterize the current and future states of the natural environment of the
           battlespace and its influence on friendly and enemy capabilities.” The METOC
           CONOPS states that the joint METOC application should be user-friendly and
           capable of providing tailored real-time meteorological, oceanographic, and
           space weather information that can be overlaid onto the COP.




1
    Each of the Services also maintains its own command and control system. The purpose of the Service
    command and control systems is to support Service-specific mission requirements. The focus of this
    audit is the joint GCCS.
2
    The term National Command Authority is used to signify constitutional authority to direct the Armed
    Forces in the execution of military action. The President and Secretary of Defense or persons acting
    lawfully in their stead can exercise National Command Authority.
3
    METOC is an all-encompassing term used to incorporate all facets of the Services’ meteorological,
    oceanographic, and space environment operations that provide information on the whole range of
    atmospheric, oceanographic, and space environment phenomena from the bottom of the Earth’s oceans
    to the space environment.



                                                       1
           Responsibilities. The responsibilities for developing, fielding, and
           operationally supporting any new GCCS requirement are distributed among the
           Defense Information Systems Agency (DISA), the Joint Staff, the Services, and
           the unified commands. The GCCS Program Manager is located within DISA.

                  Defense Information Systems Agency. The Joint Staff designated DISA
           to serve as the executive agent for the migration of current systems to GCCS.
           In addition, DISA manages the long-haul communications network that supports
           GCCS connectivity to each site. The GCCS Program Manager has the
           following management responsibilities for all joint applications, to include the
           joint METOC application.

                      •   Perform technical assessments, which include an analysis of the
                          testing of technical solutions and the feasibility of implementing
                          technical solutions, for all new requirements under evaluation in
                          the review process.

                      •   Provide cost-benefit analyses of technical solutions, recommend the
                          best technical solutions for overall GCCS implementation, and
                          provide input to the Global Command and Control Review Board4
                          on prioritization of requirements and associated technical solutions.

                      •   Provide alternative solutions and recommend known applications
                          that may more effectively satisfy requirements under evaluation, be
                          more cost-effective, or be more feasible.

                   Joint Staff. The Joint Staff provides the chair for the Review Board and
           coordinates the identification, validation, and tracking of GCCS requirements,
           including the joint METOC application and the COP. The Joint Staff also
           coordinates with DISA and the unified commands to resolve technical issues
           pertaining to the application.

                   Services. The Services provide training, personnel, and equipment to
           support the joint METOC application. Service METOC organizations provide
           the METOC information flow that each unified command requires. In addition,
           each Service is responsible for assisting the unified commands, joint task forces,
           and Component commands in refining the use of the joint METOC application
           at the Component level and below.

                  Unified Commands. The Senior METOC Officers at the unified
           commands work with the Joint Staff to determine what information should be
           displayed by the joint METOC application.



4
    The Global Command and Control Review Board reviews GCCS requirements and issues. The Review
    Board either forwards recommendations for action to the General/Flag Officers Advisory Board or
    implements actions that are consistent with approved development and implementation plans. The
    Review Board consists of O-6 level representatives from all Joint Staff directorates, the Services, and
    combatant and functional unified commands, and the chairs of functional and systems integration
    working groups.



                                                      2
Objectives
     This report is one in a series of audits evaluating the effectiveness and efficiency
     of DoD METOC support provided by the Military Departments to DoD and
     other governmental agencies. The overall objective of this self-initiated series
     of audits was to evaluate DoD METOC services and support to determine
     whether the Military Departments were providing the most cost-effective and
     nonduplicative METOC services and support to DoD and other governmental
     agencies. Specifically, this audit focused on evaluating the ability of the joint
     METOC application on GCCS to meet warfighting operational requirements. In
     addition, we reviewed the integration of the joint METOC application into the
     GCCS COP. We also evaluated the management control program as it related
     to the audit objective. See Appendix A for a discussion of the audit scope and
     methodology, our review of the management control program and management
     comments on the review, and prior coverage.




                                           3
                   Use of the Joint Meteorological and
                   Oceanographic Application
                   The DoD user5 community did not use the joint METOC application on
                   GCCS. Only 5 of 3,385 GCCS workstations had downloaded the joint
                   METOC application. The application was not used because DoD did not
                   effectively manage the transition of the application to the field.
                   Specifically, the Joint Staff did not revalidate the original METOC
                   requirements. In addition, DISA did not completely and objectively
                   perform the technical and economic analysis and field tests of METOC
                   applications. Also, DISA and the Joint Staff did not effectively integrate
                   the METOC application into GCCS for joint operational use.
                   Furthermore, DoD did not assign an executive agent to facilitate the
                   process of supporting the joint METOC application during its transition
                   to the field. As a result, DoD can demonstrate only limited progress in
                   accomplishing the primary objective of blending METOC information
                   into mission planning and execution using GCCS. In addition, DoD has
                   expended considerable resources on meetings, working groups, studies,
                   analyses, and field tests in an unsuccessful effort to implement a single
                   joint METOC application, although we were unable to quantify the costs.


Guidelines for Selection and Implementation of Applications
           Chairman of the Joint Chiefs of Staff Manual 6721.01, “GCCS Functional
           Requirements Evaluation Procedures” (Joint Staff Manual), March 1997,
           establishes the processes for developing, selecting, and supporting the best
           possible known applications to reside on GCCS.

           Validated Requirements. The Joint Staff Manual requires that the process of
           selecting an application start with a validated requirement, rather than starting
           with a technological solution and then seeking a requirement. Even if the
           sponsor of the requirement provides a candidate application, a thorough search
           should take place to ensure there are no other applications that may better meet
           the requirement in terms of functionality, cost, time to deliver, and
           supportability. The Joint Staff Manual states that:
                       . . . searches for possible candidates need not be exhaustive, but
                       sufficient enough to ensure we do not . . . overlook more cost-
                       effective and robust applications. . . . Also, to ensure broad and
                       robust GCCS evolution and prevent parallel development of similar
                       applications, searches need to occur across the Department of
                       Defense.



5
    The target user community for the joint METOC application on GCCS is any organization or individual
    that uses GCCS to oversee, conduct, and support command and control activities. Senior METOC
    Officers facilitate the use and interpretation of METOC information for the user community.



                                                    4
           The Global Command and Control Review Board will make the final
           recommendation of the “best fit” application, but the decision should be based
           on recommendations from the entire user community.

           Selection Criteria. The Joint Staff Manual states that all candidate applications
           must meet Defense Information Infrastructure Common Operating Environment6
           requirements and be compliant with current standards before being integrated
           into GCCS. The Joint Staff Manual identifies the following “key criteria in
           selecting an application” for use on GCCS.
                        (a) Implementation factors of cost, technical feasibility, and time.

                        (b) Utility to the joint community.

                        (c) Perceived endurance of the application (e.g., will this application
                        last a long time or need frequent updates?).

                        (d) Flexibility of the application.

                        (e) Ease of use (is it intuitive or will it require extensive training?).

                        (f) Compatibility with other applications (is it stand-alone, or can
                        outputs be used in other applications?).

                        (g) Scaleability.

                        (h) Supportability.

           Assignment of an Executive Agent. The Joint Staff Manual suggests that an
           executive agent should be assigned to work the actual process of bringing the
           agreed-upon capability to the warfighters. Assistant Secretary of Defense
           (Command, Control, Communications, and Intelligence) “Global Command and
           Control System (GCCS) Executive Agent (EA) Policy Memorandum,”
           June 29, 2001, requires the Assistant Secretary of Defense (Command, Control,
           Communications, and Intelligence) to designate an executive agent for each
           mission application that is selected for integration into GCCS and not directly
           managed by DISA. The nominated executive agent, representatives of the
           Assistant Secretary of Defense (Command, Control, Communications, and
           Intelligence) and the Joint Staff, and the GCCS Program Manager should
           formally agree on the specific executive agent responsibilities for integrating the
           mission application into the GCCS baseline and its subsequent support and
           enhancement.




6
    The Defense Information Infrastructure Common Operating Environment provides the architectural
    principles, guidelines, and methodologies that assist in the development of mission application software
    by capitalizing on a thorough and cohesive set of infrastructure support services.



                                                         5
Usage of the Joint METOC Application
           The DoD user community did not use the joint METOC application on GCCS.
           In December 2000, at our request, the Joint Staff Support Center7 surveyed
           system administrators at the nine unified commands and at their subordinate
           commands. The survey revealed that only 5 of the 3,385 GCCS workstations
           had downloaded the joint METOC application. The following table identifies
           which unified commands had downloaded the joint METOC application,
           according to the Joint Staff Support Center user survey conducted for this audit.

                                              Joint METOC User Survey

                                                                     Total GCCS        Workstations
                           Unified Command                           Workstations      With METOC1

              U.S. European Command                                        249              0
              U.S. Pacific Command                                         600              1
              U.S. Joint Forces Command                                  1,447              0
              U.S. Southern Command                                        130              0
              U.S. Central Command                                          88              1
              U.S. Space Command                                             9              0
              U.S. Special Operations Command                               n/a2            0
              U.S. Transportation Command                                  815              3
              U.S. Strategic Command                                        47              0

                  Total                                                  3,385              5
              1
                  GCCS workstations that had downloaded the joint METOC application.
              2
                  Not available.




           User Comments. METOC officers at each of the nine unified commands, as
           well as a representative for U.S. Forces Korea, stated that the joint METOC
           application was not used for operational purposes.

                   METOC Users. The Joint Staff Support Center user survey indicated
           that the joint METOC application had been accessed at three unified commands.
           However, none of the METOC officers at those unified commands had actually
           used the joint METOC application operationally. The METOC officers at the




7
    The Joint Staff Support Center supports the information service needs of the Joint Staff. For GCCS,
    the Support Center assists anyone with installation and use problems, maintains configuration
    management responsibility over the entire GCCS, and tracks service problem reports and application
    usage.



                                                               6
U.S. Pacific Command, the U.S. Central Command, and the U.S.
Transportation Command stated that the joint METOC application had been
downloaded to their workstations exclusively for testing, software development,
or other non-operational purposes.

        METOC Non-Users. The user community was satisfied with METOC
resources other than those available through the joint METOC application.
METOC officers from eight unified commands stated that they were content
with the METOC support available from the classified and unclassified Internet
and from Service-operated regional METOC centers. Two of those METOC
officers added that they regularly accessed and used data from other Federal,
non-DoD, resources. METOC officers from all but two of the unified
commands recognized a need for METOC information on GCCS, but they
stated that the joint METOC application did not satisfy their requirements.

       METOC officers at the nine unified commands and U.S. Forces Korea
provided the following general comments on why they were not using or had not
downloaded the joint METOC application.

         •   The METOC application did not provide the functionality desired
             (six users).

         •   The METOC application was not user-friendly (four users).

         •   They were not trained in the use of the METOC application
             (three users). However, two of the users stated that they had not
             taken advantage of a training opportunity.

         •   Limited GCCS bandwidth or capacity problems made the METOC
             application less desirable than Service-specific and other Federal or
             commercial METOC resources available for use within their areas
             of responsibility (two users).

         •   Technical problems were encountered in attempting to get the
             METOC application to work (two users).

METOC Functionality. The user community would prefer to have its
requirements met through an application that effectively overlaid METOC data
onto the COP. Some users of the joint METOC application experienced
problems in using its overlay feature. Furthermore, most potential users have
access to METOC data from commercial sources, the Internet (classified and
unclassified), and the Services. Consequently, METOC officials at the unified
commands access those other available METOC resources but must resort to
time consuming “work-arounds” to bring METOC information to their
customers.




                                     7
Transition of the Joint METOC Application to the Field
     The DoD user community did not use the joint METOC application on GCCS
     because DoD did not effectively manage the transition of the application to the
     field. Specifically, the Joint Staff did not revalidate the original METOC
     requirements. In addition, DISA did not completely and objectively perform the
     technical and economic analysis and field tests of METOC applications. Also,
     DISA and the Joint Staff did not effectively integrate the METOC application
     into GCCS for joint operational use. Furthermore, DoD did not assign an
     executive agent to facilitate the process of supporting the joint METOC
     application during its transition to the field.

     Validation of Requirements. The Joint Staff did not revalidate the original
     METOC requirements. In addition, the Joint Staff had not assembled potential
     METOC users to review their METOC requirements and determine whether the
     requirements and the METOC CONOPS were still valid. The Joint Staff held
     an April 2001 meeting with representatives of the METOC community to
     discuss the original joint METOC requirements. However, as of June 2001, the
     Joint Staff had not revalidated and prioritized METOC requirements for GCCS.

     In 1997, the Joint Staff established a Joint METOC Ad Hoc Working Group
     (Working Group) composed of representatives from the Joint Staff and the
     unified commands. The Working Group developed and approved the METOC
     CONOPS and identified 70 requirements (48 were considered essential) that
     should be satisfied by a joint METOC application.

     Two former members of the Working Group suggested that it would be
     beneficial to revalidate the joint METOC requirements. Both considered the
     original requirements and the METOC CONOPS to be valid based on the GCCS
     vision in 1997. However, both made the point that information technology had
     improved exponentially and that GCCS had matured with those improvements.
     For example, there were no METOC forecast capabilities on the classified
     Internet in 1997. Now, the classified Internet provides most of the weather
     forecast data used at the unified commands and joint task forces. In addition,
     the capabilities of the COP also matured significantly. In 1997, few of the
     participants were aware of what the COP was, much less what the COP would
     become.

     Assessment Process. DISA did not completely and objectively perform the
     technical and economic analysis and field tests of METOC applications. Field
     tests did not include testing for critical METOC functionality, interoperability,
     and overall mission impact. The assessment process in reality selected not one,
     but two METOC applications. The DoD release of a joint METOC application,
     which was actually two applications, was based on incomplete testing and
     misleading test results.

            Technical and Economic Analysis. From August 1996 through April
     1997, DISA performed a technical and economic analysis on two different
     Service METOC systems and a system developed by the U.S. Special
     Operations Command. The purpose of the technical and economic analysis was


                                         8
           to select an application that would provide the required METOC functionality
           that had been missing from GCCS, meet the requirements of the Defense
           Information Infrastructure Common Operating Environment, and provide the
           lowest life-cycle costs.8
                   A DISA-led team analyzed each of the three candidate systems to
           determine which would provide the quickest, easiest, and least costly alternative
           for adding METOC capability to GCCS. The team concluded that the Navy
           Joint METOC Segment (JMS) was the most cost-effective candidate system.
           Generally, the analysis was fair and complete; however, the team based one
           conclusion on the assumption that there was complete file format compatibility
           between the JMS and the COP. However, due to a software error, the version
           of JMS used on GCCS was unable to overlay METOC data onto the COP.
           Although the COP and the Defense Information Infrastructure Common
           Operating Environment were originally Navy programs, some of the file
           formats on Navy and joint applications were different and, therefore, prevented
           direct data transfers.

                  DISA officials stated that the Air Force protested the selection of the
           Navy’s system because JMS did not produce the quality of graphics that the Air
           Force desired. Therefore, the Air Force candidate system, the Tactical Forecast
           System (TFS), also proceeded to field testing.

                   Field Tests. Evaluation teams, composed of Joint Interoperability Test
           Command evaluators and GCCS users and system administrators at the test
           locations, completed field tests on JMS and TFS in July and September 1999,
           respectively.

                           Joint METOC Segment. An evaluation team field tested JMS at
           the U.S. Atlantic Command (subsequently redesignated as the U.S. Joint Forces
           Command). The evaluation team concluded that the JMS was “operationally
           effective and operationally suitable for fielding and operations.” The test results
           indicated that 88 percent of all JMS functionality tested had qualified as fully
           successful. However, the conclusions of the evaluation team were based on
           tests completed in an environment that did not match the capabilities of a normal
           operational site. For example, the assessment report states that:
                        a. The SECRET Internet Protocol Router Network (SIPRNet) was
                        not available during the test.

                        b. The METOC Imagery Segment (MIS) did not install properly.

                        c. There were no live data feeds available for the test. All data came
                        from pre-recorded files.


8
    The life-cycle costs are the marginal “recurring costs of corrective software maintenance, the non-
    recurring cost to develop Joint training programs and documentation, and marginal program
    management costs.” The technical and economic analysis covered the specific costs of putting those
    candidate applications on GCCS. The analysis did not, however, cover the non-recurring costs of
    developing each application’s basic functionality because those costs would have been incurred by the
    Services whether or not the applications were put on GCCS.



                                                       9
           d. The history file (the Oceanographic Atmospheric Master Library
           (OAML) database) is classified, and was not made available for the
           test.

                Tactical Forecast System. An evaluation team field tested TFS
at the U.S. Transportation Command. The evaluation team recommended
fielding of the TFS even though the field tests “revealed inconsistencies and
functional problems that are considerable shortcomings.” The test results
indicated that 81 percent of all TFS functionality tested had qualified as fully
successful. The team accepted TFS, noting in its assessment report the
following shortcomings.

           •   TFS lacks a well thought-out training plan and approach. The
               number of users who will be able to use TFS is small, and there
               are no plans for formal training of new users.

           •   TFS is not interoperable with the GCCS COP, a requirement
               stated in the METOC CONOPS.

Users and system administrators at the National Military Command Center
determined that TFS was adequate for initial release and user familiarization.
Consequently, the Joint Staff user representative requested release of TFS “in its
current state to give users an early look and to acquire feedback for future
enhancements.”

       Assessment Results. The assessment process in reality selected not one,
but two METOC applications. The DoD release of a joint METOC application,
which was actually two applications, was based on incomplete testing and
misleading test results. The Joint Staff selected inadequate test locations and
provided test criteria that did not sufficiently describe what needed to be
measured. The DISA evaluation teams prepared assessment reports that
included misleading success rates.

               Test Locations. The Joint Staff assigned test locations that could
not adequately support the testing required. For example, the evaluation team
was unable to test the capability of JMS to accurately overlay METOC data onto
the COP because the test environment did not provide access to live METOC
data feeds or to a properly installed METOC imagery segment.

                 Test Criteria. The Joint Staff provided test criteria that did not
supply observable, qualitative descriptions of what needed to be measured. For
example, the Joint Interoperability Test Command was tasked to test system
capability to “ingest binary grid data from various systems.” However, the test
criteria did not identify the specific data sources to be used or indicate the extent
of “stress testing” required to provide a useful conclusion on the quality of
system performance. As a result, the evaluation teams did not perform several
critical tests on functionality, interoperability, and overall mission impact.

              Assessment Reports. The assessment reports suggest a more
favorable success rate than appears warranted. The evaluation teams used the
number of functions tested as their base rather than the total number of functions


                                      10
required. Those favorable success rates are emphasized in the reports.
However, using total functionality as the base, rather than tested functionality,
the fully successful rates dropped from 88 percent to 80 percent for JMS and
from 81 percent to 68 percent for TFS.

Neither of the applications released to the field adequately fulfilled the
requirements of the METOC CONOPS. See Appendix B for a description of
JMS and TFS capabilities.

Integration of METOC. DISA and the Joint Staff did not effectively integrate
the METOC application into GCCS for joint operational use. DISA and the
Joint Staff released a joint METOC application in the last quarter of FY 1999
but did not evaluate user surveys, identify and correct technical deficiencies, or
ensure that the target user community was trained in the use or capabilities of
the application.

        User Surveys. The Joint Staff, with the assistance of DISA, performs
user surveys on the utility of GCCS mission applications released to the field.
A user survey performed by DISA in October and November 1999 directed
users to provide comments regarding any GCCS application. DISA received
one response related to the joint METOC application. The respondent stated
that the users were not getting sufficient METOC training. At the time of that
survey, DISA and the Joint Staff discounted the response because the METOC
application was new to GCCS and had not been extensively used. In other
contacts between the Joint Staff and the field, there was no evidence that
METOC application use was discussed.

       Monitoring System Capabilities. After releasing the joint METOC
application to the field, DISA did not ensure that the joint METOC application
worked as designed or identify and correct deficiencies in a timely manner. For
example, when DISA released the JMS application, it could not overlay select
METOC data onto the COP. For more than 18 months, DISA made JMS
available and did not notify potential users that the application could not overlay
select METOC data onto the COP. DISA then asked the Navy to correct the
problem. As of June 2001, the Navy was acting to provide a solution.

        User Training. METOC officers at the unified commands had received
no training on the joint METOC application, and at least three specifically stated
that they needed training. Two other potential users stated that they had not
taken advantage of a training opportunity. The Air Force provides a “single
service training manager” for GCCS. The Navy also provides training courses
on GCCS at three separate training sites. None of those training opportunities
specifically focuses on the joint METOC application; however, one Navy course
briefly covers the subject in its general overview.

Executive Agent. DoD did not assign an executive agent to facilitate the
process of supporting the joint METOC application during its transition to the
field. DoD allowed the Navy and the Air Force to each act independently as a
lead Service. The Services focused on providing improved overall functionality
for their own METOC applications. In order to facilitate the process of making
joint applications provided by DoD more effective and usable, the U.S.


                                      11
    Transportation Command hired a contractor to maintain GCCS, integrate
    products, and fix system problems. The costs directly attributable to the joint
    METOC application were not quantifiable because the contractor’s scope of
    work included numerous miscellaneous functions related to GCCS at the U.S.
    Transportation Command.

    The Assistant Secretary of Defense (Command, Control, Communications, and
    Intelligence) should designate an executive agent for the joint METOC
    application to help mitigate problems the DoD user community has with the
    application. An executive agent with specific responsibility to focus on the joint
    METOC application could help:

             •   ensure the application software is sufficiently mature, meets
                 acceptable standards, and can successfully be integrated into
                 GCCS;

             •   ensure the target user community is trained and has appropriate
                 system documentation and user guidance on the application and its
                 capabilities;

             •   assist potential users to make more efficient use of the application;

             •   provide assistance with technical problems; and

             •   monitor and analyze help desk and trouble calls to determine
                 whether the application is operating as designed.


METOC Information on GCCS
    DoD can demonstrate only limited progress in achieving the primary objective
    for developing a joint METOC application: “blending METOC information
    into mission planning and execution” using GCCS. DoD has been seeking joint
    METOC solutions since the issue was identified as critical in after-action reports
    from Operation Desert Storm. Although considerable effort has been expended
    to develop a joint METOC application, as of February 2001, there was no
    viable solution for a joint METOC application and users did not have the joint
    functionality required.

    As early as December 1995, the Joint Staff started looking for candidate
    applications to add METOC capability to GCCS. The Joint Staff designed the
    assessment process with the goal to select and implement one joint application
    that would satisfy validated user requirements. The overall goal for the
    assessment process was to reduce, and eventually eliminate, duplication of effort
    and Service-unique systems that do not allow joint functionality. However,
    since the Joint Staff and unified commands developed the joint METOC
    requirements, the Services have continued to separately fund the improvement
    of their own METOC applications.




                                        12
    In addition, DoD has expended considerable resources since December 1995 on
    meetings, working groups, studies, analyses, and field tests in an unsuccessful
    effort to implement a single joint METOC application, although we were unable
    to quantify the costs. As of February 2001, DoD had made two joint METOC
    applications available to the target user community. However, neither of the
    applications adequately fulfilled the requirements of the METOC CONOPS and
    neither had the capability to efficiently and effectively overlay METOC data
    onto the COP.


Conclusion
    DoD poorly managed the process of fielding a joint METOC application. The
    original requirements, as stated in the METOC CONOPS, may now be
    outdated, and DoD assessed and approved candidate applications that did not
    provide the complete functionality required. Although tests were performed, the
    tests were incomplete. DoD developed and validated requirements but did not
    ensure that the applications, once released, met those requirements.
    Furthermore, DoD did not provide users with adequate technical support or
    training. As a result, there are two applications, two lead Services, and no
    operational users.


Management Comments on the Report and Audit Response
    Air Force Comments. The Air Force made two major points that are not
    directly addressed in the Recommendation section of this report. First, the Air
    Force stated that the report cited criteria as references that had been superseded.
    Second, the Air Force stated that the report inaccurately referred to the
    “executive agent” when the term “product agent” should have been used.

    Audit Response. For purposes of clarity and perspective in presenting the
    issues in this report, we elected to reference criteria in the scope section
    (Appendix A) of the draft report that had been superseded and to use the term
    executive agent rather than the recently introduced “product agent.”

            Criteria. The superseded GCCS criteria cited by the Air Force were in
    effect at the time both joint METOC applications – JMS and TFS – were
    released to the field. However, to satisfy the concerns of the Air Force, the
    scope section of this report has been adjusted to include the original and
    amended versions of the Chairman of the Joint Chiefs of Staff instructions.

            Executive Agent. We elected to continue to use the term executive
    agent throughout this report because there is no definitive explanation of the role
    of a “product agent.” Chairman of the Joint Chiefs of Staff Instruction
    6722.01A, “Global Command and Control System Configuration Management
    Policy,” July 2000, uses “executive agent” and “product agent”
    interchangeably. In addition, the Assistant Secretary of Defense (Command,
    Control, Communications, and Intelligence) has drafted a policy memorandum


                                         13
    “Global Command and Control System (GCCS) Executive Agent (EA) Policy
    Memorandum,” requiring the Assistant Secretary of Defense (Command,
    Control, Communications, and Intelligence) to designate an executive agent for
    each mission application that is selected for integration into GCCS and not
    directly managed by DISA. According to the draft policy memorandum, the
    nominated executive agent, representatives of the Assistant Secretary of Defense
    (Command, Control, Communications, and Intelligence) and the Joint Staff, and
    the GCCS Program Manager should formally agree on the specific executive
    agent responsibilities for integrating the mission application into the GCCS
    baseline and its subsequent support and enhancement. The draft policy
    memorandum is expected to be signed in July 2001.


Recommendations, Management Comments, and
  Audit Response
    Redirected, Renumbered, and Deleted Recommendations. As a result of
    management comments, we redirected draft Recommendations 1.a. and 1.b.
    from the Chairman, Global Command and Control Review Board, to the
    Director, Joint Staff, and renumbered them as Recommendations 2.a. and 2.b.,
    respectively. The Joint Staff had responded to the draft recommendations
    directed to the Chairman, Global Command and Control Review Board, stating
    that the recommendations are a “collective responsibility” of the Joint Staff.
    The Joint Staff also stated that the draft recommendation concerning the
    designation of an executive agent was not within the authority of the Joint
    Staff. Therefore, we redirected draft Recommendation 1.c. to the Assistant
    Secretary of Defense (Command, Control, Communications, and Intelligence)
    and renumbered it as Recommendation 1. We renumbered draft
    Recommendation 2. as Recommendation 3., deleted draft
    Recommendation 2.a.(3), and renumbered draft Recommendations 2.a.(4) and
    2.a.(5) as Recommendations 3.a.(3) and 3.a.(4), respectively.

    We request that the Assistant Secretary of Defense (Command, Control,
    Communications, and Intelligence) provide comments on the redirected
    recommendation in response to the final report.

    1. We recommend that the Assistant Secretary of Defense (Command,
    Control, Communications, and Intelligence) designate one executive agent
    for the joint meteorological and oceanographic application with
    responsibilities for:

            a. Ensuring that potential mission application software adequately
    satisfies requirements and meets acceptable standards before it goes
    through Global Command and Control System integration testing.

          b. Providing the Global Command and Control System joint
    meteorological and oceanographic application user community with:




                                       14
             (1) Notification of the uses and capabilities of the
meteorological and oceanographic application.

               (2) Training that facilitates efficient use of the application.

              (3) Assistance with development of technical solutions,
technical analyses, and on-line performance testing.

               (4) Adequate documentation of system uses and capabilities.

2. We recommend that the Director, Joint Staff:

      a. Revalidate the original Global Command and Control System
meteorological and oceanographic requirements.

Joint Staff Comments. The Joint Staff concurred, stating that it was
addressing the revalidation of requirements for a joint METOC application.

Air Force Comments. Although not required to comment, the Air Force stated
that the Meteorological and Oceanographic Ad Hoc Working Group should
revalidate the requirements and the Global Command and Control Review Board
should approve the validated requirements.

       b. Develop concrete, measurable, and qualitative requirements that
can be accurately tested.

Joint Staff Comments. The Joint Staff concurred, stating that the development
of testable metrics will require close coordination with DISA.

Air Force Comments. The Air Force stated that the use of “qualitative”
connotes a subjective requirement; therefore, the use of “qualitative” should be
replaced with “quantitative” throughout the report.

Audit Response. We do not agree with the Air Force preference for using the
term “quantitative” in place of “qualitative.” We believe that the testing
process lacks adequate qualitative test criteria. DISA performed a total of
123 tests on the two candidate applications (90 for the JMS and 33 for TFS) and
approved the release of both applications based on success rates of 88 percent
and 80 percent respectively. Both applications failed critical test criteria and not
all critical tests that were completed provided meaningful results.

3. We recommend that the Director, Defense Information Systems Agency:

      a. Perform a new technical and economic analysis of meteorological
and oceanographic applications using the following revised requirements:

               (1) Identify all mission-critical functional requirements and
ensure that all meteorological and oceanographic applications satisfy the
mission-critical requirements.




                                      15
             (2) Perform a thorough technical review based on concrete,
measurable, and qualitative criteria.

              (3) Provide a recommendation on the assignment of an
executive agent for the joint meteorological and oceanographic application.

              (4) Evaluate future meteorological and oceanographic
applications for overall mission impact, compatibility with hardware in the
field, and user friendliness.

DISA Comments. DISA concurred, stating that it would perform a new
technical and economic analysis upon receipt of prioritized functional
requirements from the Joint Staff. DISA stated that once the functional
requirements were identified and reaffirmed, it would assist with further
technical analysis to determine the status of METOC applications. DISA also
stated that it will recommend an executive agent for all new GCCS applications.
Further mission impact was primarily a Joint Staff responsibility, but DISA
would participate in evaluating mission impact, hardware compatibility and user
friendliness through the GCCS Assessment Working-Level Integrated Product
Team. In regard to a draft recommendation concerning the identification of a
single METOC application, DISA stated that METOC requirements fell into
diverse functional areas, and that fielding a single application to provide all
required functionality is not always the most technically or economically sound
solution.

Audit Response. The DISA comments were responsive, although DISA will
need to coordinate with the Joint Staff to ensure timely receipt of prioritized
functional requirements. As a result of the DISA comments, we deleted the
recommendation to identify one application to add METOC functionality to
GCCS.

       b. Perform field tests of the joint meteorological and oceanographic
application that is selected in the technical and economic analysis at test
locations with environments comparable to a normal operational location.
DISA Comments. DISA concurred, stating that it will work closely with the
Joint Staff and the Joint METOC Functional Working Group to identify test
sites best suited for the performance of operational assessments. The GCCS
Program Management Office at DISA drafted a charter to formulate a GCCS
Test and Evaluating Working-Level Integrated Product Team, which will bring
together the GCCS developer and user-representative and test communities for
test-related coordination, discussion, and planning.

      c. Coordinate with the Global Command and Control
Meteorological and Oceanographic Executive Agent, when designated, to
provide:

              (1) Functional meteorological and oceanographic applications
and capabilities for the Global Command and Control System that do not
duplicate Service efforts.



                                    16
DISA Comments. DISA concurred, stating that the DISA GCCS Program
Management Office, the Joint Staff, and the Functional Working Groups must
coordinate efforts to ensure that capabilities do not duplicate Service efforts. As
part of the GCCS assessment process, the Joint Staff and the Functional
Working Groups provide the initial screening of solutions against requirements
and rank those solutions in terms of operational suitability and effectiveness.

Air Force Comments. The Air Force stated that it believes that DoD policy is
to keep development to a minimum if a capability already exists within Service
applications.

             (2) Continuing support for joint meteorological and
oceanographic applications.

Audit Response. DISA did not respond to this recommendation; therefore, we
request that the Director, DISA, provide comments in response to the final
report.

       d. Track and analyze use of the application to determine the:

               (1) General satisfaction of the users with the application.

DISA Comments. DISA concurred, stating that it will coordinate with the Joint
Staff on the GCCS user satisfaction surveys to ensure that user comments and
feedback are properly analyzed and tracked.

Air Force Comments. The Air Force stated that user satisfaction surveys
should not be the sole or primary indicator of general satisfaction of the users.

             (2) Existence of major application errors or unmet user
requirements.

DISA Comments. DISA concurred, stating that the Joint Staff should update
the GCCS Requirements Database by documenting any unmet or new GCCS
METOC requirements and prioritizing those requirements for DISA. DISA also
stated that it would rely on customers to report major application errors to the
joint operations center as Global System Problem Reports. GCCS engineers
will then provide fixes, starting with the highest priority.

Air Force Comments. The Air Force stated that an evaluation of whether or
not an application meets user requirements should be done during program
development as part of risk assessment and management. The evaluation of
application errors should be done during program development through test and
evaluation.




                                     17
Appendix A. Audit Process

Scope
    We reviewed DoD guidance for the addition of METOC functionality to GCCS.
    We reviewed Chairman of the Joint Chiefs of Staff Instruction 6721.01, “Global
    Command and Control Management Structure,” February 1995; Chairman of
    the Joint Chiefs of Staff Instruction 6721.01A, “Global Command and Control
    Management Structure,” November 2000; Chairman of the Joint Chiefs of Staff
    Instruction 6722.01, “Global Command and Control System Configuration
    Management Policy,” July 1997; Chairman of the Joint Chiefs of Staff
    Instruction 6722.01A “Global Command and Control System Configuration
    Management Policy,” July 2000; the METOC CONOPS; “GCCS User Concept
    of Operations,” December 1995; Chairman of the Joint Chiefs of Staff Manual
    6721.01, “GCCS Functional Requirements Evaluation Procedures,” March
    1997; Chairman of the Joint Chiefs of Staff Instruction 3170.01A,
    “Requirements Generation System,” August 1999; and Chairman of the Joint
    Chiefs of Staff Instruction 3170.01B, “Requirements Generation System,” April
    2001. The documentation reviewed covered the period from February 1995
    through June 2001. We evaluated whether the Joint Staff was coordinating the
    efforts of the Military Departments to ensure that accurate, timely, and usable
    METOC information was being provided by the joint METOC application. We
    also reviewed the processes used to generate, develop, test, and field the
    applications intended to satisfy the joint METOC requirements. In addition, we
    contacted the unified commands to determine whether they were using the joint
    METOC applications.

    DoD-Wide Corporate Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal and subordinate performance goals:

           FY 2001 DoD Corporate Level Goal 2: Prepare now for an uncertain
           future by pursuing a focused modernization effort that maintains U.S.
           qualitative superiority in key warfighting capabilities. Transform the
           force by exploiting the revolution in Military Affairs, and reengineer the
           Department to achieve a 21st century infrastructure. (01-DoD-2)

           FY 2001 Subordinate Performance Goal 2.3: Streamline the DoD
           infrastructure by redesigning the Department’s support structure and
           pursuing business practice reforms. (01-DoD-2.3)

           FY 2001 Subordinate Performance Goal 2.5: Improve DoD financial
           and information management. (01-DoD-2.5)




                                       18
    High-Risk Area. The General Accounting Office has identified several high-
    risk areas in DoD. This report provides coverage of the DoD Systems
    Modernization high-risk area.


Methodology
    During the audit, we evaluated methods DoD used to create and manage the
    joint METOC applications. Specifically, we identified and analyzed policies
    and guidance used by the Joint Staff, DISA, and the Military Departments to
    identify, document, and validate requirements for METOC information. We
    also:

          • conducted interviews with officials from the Office of the Joint Chiefs
            of Staff, each unified command, DISA, the Air Force Electronic
            Systems Command, the Space and Naval Warfare Systems Command,
            and the U.S. Transportation Command;

          • reviewed the training requirements and processes used by the Joint
            Staff and the Military Departments for applications on GCCS;

          • reviewed the development and testing of GCCS and the METOC
            applications of that system; and

          • reviewed user surveys and solicited comments from potential users to
            determine the amount and type of use the joint METOC application
            received.

    Audit Type, Dates, and Standards. We performed this program audit from
    November 2000 through June 2001 in accordance with auditing standards issued
    by the Comptroller General of the United States, as implemented by the
    Inspector General, DoD. Accordingly, we included tests of management
    controls considered necessary. We did not use computer-processed data to
    perform this audit. Although we did our work in accordance with generally
    accepted Government auditing standards, we were unable to obtain an opinion
    on our system of quality control. The most recent external quality control
    review was withdrawn on March 15, 2001, and we will undergo a new review.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.




                                        19
Management Control Program Review
     DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
     1996, and DoD Instruction 5010.40, “Management Control (MC) Program
     Procedures,” August 28, 1996, require DoD organizations to implement a
     comprehensive system of management controls that provides reasonable
     assurance that programs are operating as intended and to evaluate the adequacy
     of the controls.

     Scope of the Review of the Management Control Program. We limited our
     review to the adequacy of management controls at DISA related to the joint
     METOC applications. Specifically, we reviewed management controls over
     requirements and testing of GCCS METOC applications. We also reviewed
     management’s self-evaluation applicable to those controls.

     Adequacy of Management Controls. We identified material management
     control weaknesses within DISA as defined by DoD Instruction 5010.40.
     Management controls in DISA for GCCS were not adequately employed to
     ensure that GCCS METOC applications were effectively implemented.
     Recommendation 3., if implemented, will correct the identified weaknesses and
     could result in functional METOC information being made available to the user
     community through GCCS. A copy of the report will be provided to the senior
     official responsible for management controls in DISA.

     Adequacy of Management’s Self-Evaluation. DISA officials identified GCCS
     as an assessable unit but did not perform an evaluation because management
     scheduled the tests of management controls for FY 2001 through FY 2002 in the
     management control plan.

Management Comments and Audit Response on Management Controls
     DISA Comments. DISA stated that its management controls allowed
     appropriate oversight to meet joint command and control requirements. DISA
     stated its management structure allowed for direct representation from the user
     community to ensure functional results were available.

     Audit Response. DISA management controls were not adequately employed to
     ensure that GCCS METOC applications were effectively implemented.
     Specifically, DISA did not employ the management controls that it had
     established. Also, DISA did not ensure that its products and services were
     deployed and demonstrated to be suitable and effective in an operational
     environment.




                                        20
Prior Coverage
     No prior coverage has been conducted on METOC functionality on GCCS
     during the last 5 years. The following final reports have been issued in this
     series of reviews. Unclassified Inspector General, DoD, reports can be
     accessed over the Internet at http://www.dodig.osd.mil/audit/reports.

Inspector General, DoD
     Inspector General, DoD, Report No. D-2001-152, “Meteorological and
     Oceanographic Support in the European Theater,” June 28, 2001

     Inspector General, DoD, Report No. D-2001-151, “Meteorological and
     Oceanographic Support in the Pacific Theater,” June 28, 2001

     Inspector General, DoD, Report No. D-2001-133, “Deliberate Planning for
     Meteorological and Oceanographic Operations (U),” June 1, 2001

     Inspector General, DoD, Report No. D-2001-018 “Management and Oversight
     of the DoD Weather Program,” December 14, 2000




                                          21
Appendix B. Joint Meteorological and
            Oceanographic Applications
     As of June 2001, the target user community could access two joint METOC
     applications: the JMS and TFS.


Joint METOC Segment
     In July 1999, the Joint Staff approved for release a joint METOC application
     that consisted of six Navy METOC segments, selected from numerous other
     Navy METOC applications. Those Navy segments, described below, are
     collectively known as the JMS.

           • The METOC Communications segment provides the capability to
             reach out to a web server and download binary grid data that can then
             be decoded and displayed on other segments.

           • The Joint METOC Plot segment provides the capability to retrieve,
             draw, and disseminate METOC grid or other data onto a chart. The
             user can create overlays of information onto maps.

           • The JMS Parsers segment decodes messages, but not graphical
             interface components. It receives and places the messages in their
             appropriate locations.

           • The METOC Brief segment creates briefing slides and charts from
             METOC information.

           • The METOC Data Servers Lite segment includes a decoder. It can
             also manage METOC observation data. It has no graphical interface
             components.

           • The METOC Imagery segment contains applications used for
             animating, managing, and viewing METOC Image Format files.


Tactical Forecast System
     In May 2000, the Joint Staff approved for release a second joint METOC
     application. The Air Force application, TFS, provides communications, data
     management, and base weather station capabilities to all command, control,
     communications, and computer customers. Also released was the TFS Web
     Application, which allows TFS data to be put onto the World Wide Web.




                                        22
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)

Joint Staff
Director, Joint Staff
  Chairman, Global Command and Control Review Board
  Chairman, Global Command and Control System Working Group
  Chairman, Global Command and Control System Common Operational Picture
     Working Group
  Chairman, Global Command and Control System Meteorological and Oceanographic
     Working Group

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Commander, Space and Naval Warfare Systems Command
Oceanographer of the Navy
  Commander, Naval Meteorology and Oceanography Command

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Director of Weather
  Commander, Air Force Weather Agency
Commander, Combat Air Force Command and Control System Program Office




                                          23
Unified Commands
Commander in Chief, U.S. European Command
Commander in Chief, U.S. Pacific Command
  Commander, U.S. Forces Korea
Commander in Chief, U.S. Joint Forces Command
Commander in Chief, U.S. Southern Command
Commander in Chief, U.S. Central Command
Commander in Chief, U.S. Space Command
Commander in Chief, U.S. Special Operations Command
Commander in Chief, U.S. Transportation Command
Commander in Chief, U.S. Strategic Command

Other Defense Organization
Director, Defense Information Systems Agency

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         24
Joint Staff Comments
                            Final Report
                             Reference




                            Redirected,
                            renumbered
                            as Recom-
                            mendation
                            2.


                            Renumbered
                            as Recom-
                            mendations
                            2.a. and 2.b.



                            Redirected,
                            renumbered
                            as Recom-
                            mendation
                            1.




                       25
Defense Information Systems Agency Comments




                     26
     Final Report
      Reference




     Renumbered
     as Recom-
     mendation
     3.a.




     Deleted



     Renumbered
     as Recom-
     mendation
     3.a.(3)
     Renumbered
     as Recom-
     mendation
     3.a.(4)




27
Final Report
 Reference




Renumbered
as Recom-
mendation
3.b.




               28
     Final Report
      Reference




     Renumbered
     as Recom-
     mendation
     3.c.




     Renumbered
     as Recom-
     mendation
     3.d.




29
Final Report
 Reference




Renumbered
as Recom-
mendation
3.




               30
Department of the Air Force Comments
                                                                           Final Report
                                                                            Reference




                                                                           *



                                                                           Deleted




                                                                           Renumbered
                                                                           as Recom-
                                                                           mendation
                                                                           3.c.(1)




* See text of Air Force comments for the renumbering of recommendations.
                                          31
32
     Final Report
      Reference




     Redirected
     and
     renumbered
     as Recom-
     mendation
     2.a.




     Redirected
     and
     renumbered
     as Recom-
     mendation
     2.b.




     Redirected
     and
     renumbered
     as Recom-
     mendation
     1.




33
Final Report
 Reference




Renumbered
as Recom-
mendation
3.a.




Deleted




               34
     Final Report
      Reference




     Renumbered
     as Recom-
     mendation
     3.a.(3)

     Redirected
     and
     renumbered
     as Recom-
     mendation
     1.

     Renumbered
     as Recom-
     mendation
     3.a.(4)

     Renumbered
     as Recom-
     mendation
     3.b.



     Renumbered
     as Recom-
     mendation
     3.c.

     Redirected
     and
     renumbered
     as Recom-
     mendation
     1.




35
Final Report
 Reference




Renumbered
as
Recommen-
dation 3.d.




               36
37
Final Report
 Reference




Revised




               38
     Final Report
      Reference




     Revised




     Page 8




     Page 8,
     revised




39
Final Report
 Reference




Page 8




Page 13




Page 18,
revised




               40
41
Audit Team Members

The Readiness and Logistics Support Directorate, Office of the Assistant
Inspector General for Auditing, DoD, prepared this report. Personnel of the
Office of the Inspector General, DoD, who contributed to this report are
listed below.

       Shelton R. Young
       Evelyn R. Klemstine
       Hugh G. Cherry
       Captain Greg W. Lewis, U.S. Marine Corps
       Scott J. Odette
       Peter C. Johnson
